<html>
<title> - BAD COMPANY: LASHKAR E-TAYYIBA AND THE GROWING AMBITION OF ISLAMIST MILITANCY IN PAKISTAN</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                   BAD COMPANY: LASHKAR E-TAYYIBA AND
                    THE GROWING AMBITION OF ISLAMIST
                         MILITANCY IN PAKISTAN

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2010

                               __________

                           Serial No. 111-98

                               __________

        Printed for the use of the Committee on Foreign Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                      U.S. GOVERNMENT PRINTING OFFICE
  55-399PDF               WASHINGTON : 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5e392e311e3d2b2d2a363b322e703d313370">[email&#160;protected]</a>  








                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
JOHN S. TANNER, Tennessee            CONNIE MACK, Florida
GENE GREEN, Texas                    JEFF FORTENBERRY, Nebraska
LYNN WOOLSEY, California             MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                  GARY L. ACKERMAN, New York, Chairman
RUSS CARNAHAN, Missouri              DAN BURTON, Indiana
MICHAEL E. McMAHON, New York         JOE WILSON, South Carolina
SHEILA JACKSON LEE, Texas            J. GRESHAM BARRETT, South Carolina
SHELLEY BERKLEY, Nevada              JEFF FORTENBERRY, Nebraska
JOSEPH CROWLEY, New York             MICHAEL T. McCAUL, Texas
MIKE ROSS, Arkansas                  BOB INGLIS, South Carolina
JIM COSTA, California                GUS BILIRAKIS, Florida
KEITH ELLISON, Minnesota             DANA ROHRABACHER, California
RON KLEIN, Florida                   EDWARD R. ROYCE, California
BRAD SHERMAN, California
ELIOT L. ENGEL, New York
GERALD E. CONNOLLY, Virginia
GENE GREEN, Texas
VACANT
              Howard Diamond, Subcommittee Staff Director
           Mark Walker, Republican Professional Staff Member
                      Dalis Adler, Staff Associate












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Marvin Weinbaum, Ph.D., Scholar-in-Residence, The Middle East 
  Institute......................................................     9
Ms. Lisa Curtis, Senior Research Fellow, Asian Studies Center, 
  The Heritage Foundation........................................    16
Ashley J. Tellis, Ph.D., Senior Associate, South Asia Program, 
  Carnegie Endowment for International Peace.....................    24
Mr. Shuja Nawaz, Director, The South Asia Center.................    35

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Gary L. Ackerman, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the Middle 
  East and South Asia: Prepared statement........................     3
Marvin Weinbaum, Ph.D.: Prepared statement.......................    11
Ms. Lisa Curtis: Prepared statement..............................    18
Ashley J. Tellis, Ph.D.: Prepared statement......................    26
Mr. Shuja Nawaz: Prepared statement..............................    37

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57

 
  BAD COMPANY: LASHKAR E-TAYYIBA AND THE GROWING AMBITION OF ISLAMIST 
                         MILITANCY IN PAKISTAN

                              ----------                              


                        THURSDAY, MARCH 11, 2010

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:36 p.m. in room 
2172, Rayburn House Office Building, Hon. Gary L. Ackerman 
(chairman of the subcommittee) presiding.
    Mr. Ackerman. The committee will come to order. While U.S. 
attention has focused primarily on al-Qaeda and the Afghan and 
Pakistan Taliban, the Lashkar e-Tayyiba, or LET, and other 
violent Islamic extremist groups in Pakistan have been growing 
in both capability and ambition. As was demonstrated in the 
horrific Mumbai attack in November 2008, the al-Qaeda model of 
perpetrating highly visible, mass casualty attacks appears to 
have migrated with enormous potential consequences for the 
United States.
    With a team of ten well armed terrorists, a carefully 
coordinated plan of attack, and a team of controllers back in 
Pakistan in constant communication with the terrorist attack 
team, the LET in 3 days killed 173 innocent people, wounded 308 
others, and grabbed hold of the entire world's attention. 
Communications intercepts that have been made public by the 
Government of India include an attack controller broadcasting 
about the carnage in Mumbai. This is just the trailer, he said, 
the main movie is yet to come.
    We need to take this threat very very seriously. The LET is 
a deadly serious group of fanatics. They are well financed, 
ambitious, and most disturbingly, both tolerated by and 
connected to the Pakistani military, the same Pakistani 
military to which we are selling advanced arms, the same 
Pakistani military that objected so bitterly to legislation 
this Congress passed to provide a massive $7.5 billion plus-up 
in American assistance to their country, Pakistan, because our 
accompanying language with all that money suggests that 
Pakistan's military should be answerable to a democratically 
elected government.
    Lashkar e-Tayyiba, which means the army of the righteous or 
the army of the pure, was set up with help from the Pakistani 
military as a proxy weapon for use in Jammu and Kashmir, parts 
of India that Pakistan has contested since partition in 1947. 
After 9/11 Pakistan officially banned the LET, but the reality 
is that it is like other Islamist terrorist groups, LET 
maintains a clear public presence and a vast recruiting network 
by providing extremely useful charitable and social services to 
millions of impoverished people in Pakistan.
    Public estimates suggest LET operates some 2,000 offices in 
towns and villages throughout Pakistan as well as maintaining 
ties with the Pakistani military. There is in fact no reason to 
doubt that Pakistan's military is likely paying compensation to 
the families of the terrorists killed in the Mumbai attacks. 
These are our allies in the war on terror. Operational funding 
for the LET comes from charitable fundraising amongst the 
general population in Pakistan, but also depends heavily upon 
contributions by Pakistani businessmen living abroad and other 
wealthy individuals from the Persian Gulf. Let us note too, 
these states are also our allies in the war on terror.
    But it would be unfair and wrong to suggest that the LET 
problem is strictly confined to Pakistan and Middle East. In 
fact, one of the key facilitators in the Mumbai attacks was an 
American of Pakistani extraction. Unfortunately, the LET enjoys 
a substantial global network stretching from the Philippines to 
the United Kingdom. There is a temptation to think that the LET 
is really India's problem, that the LET is just interested in 
the so called liberation of Jammu and Kashmir. While it is true 
that the primary area of operations for the LET has 
historically been the Kashmir valley and the Jammu region, the 
LET has also undertaken repeated and numerous mass casualty 
attacks throughout India and in particular directed at the 
Indian Government.
    But the idea that this group can be appeased on the subject 
of Kashmir is dangerous nonsense. The LET's true goal is not 
Kashmir, it is India, and the LET is not shy about announcing 
that its intention is to establish an Islamic state in all 
South Asia. Neither does it hide or try to play down its 
declaration of war against all, all Hindus and Jews, who they 
insist are ``enemies of Islam.'' In the wake of the Mumbai 
attack, investigators uncovered in controller records and email 
accounts a list of 320 locations worldwide deemed by the LET as 
possible targets for attack. Only 20 of the targets were 
located within India.
    The LET has been attacking U.S. forces in Afghanistan 
almost from day one, and their forces are present throughout 
Afghanistan. The LET has been slaughtering Indians by the score 
for decades. The LET has put the world on notice that they 
intend to escalate the carnage and spread it worldwide. This 
group of savages needs to be crushed, not starting in a month, 
not in a year, not when the situation stabilizes in 
Afghanistan, not when things are under control in Pakistan, 
now, today, and every day going forward. We are not doing it, 
and we are not effectively leading a global effort to do it, 
and we are going to regret this mistake, we are going to regret 
it bitterly. The ranking member.
    [The prepared statement of Mr. Ackerman 
follows:]Ackerman statement

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Burton. Thank you, Mr. Chairman, and thanks for calling 
this hearing today so we can examine the ongoing struggle with 
Pakistan to deal with radical militants seeking to undermine 
Pakistan's Government and threaten regional efforts to bring 
stability and peace to Pakistan as well as Afghanistan. For a 
very long time I have been a champion of Pakistan and a co-
chairman of the Pakistani Caucus in Congress because I 
fundamentally believe that a stable, democratic, and prosperous 
Pakistan is vital to our interests.
    And I am extremely concerned, as are many other members of 
the committee, about the increasingly negative news reports 
coming out of Pakistan. A new threat has emerged within 
Pakistan that may perhaps be more powerful and dangerous than 
al-Qaeda, and that is the LET you talked about. It has proven 
in recent years that it is strong, well organized, and well 
resourced as a terrorist organization. LET's growing influence 
has serious implications for regional, national, and 
international security interests.
    As we all know, Pakistan has a nuclear arsenal, which would 
pose a grave threat to the entire region should it fall under 
the control of the extremists. Since the LET's most famous 
attack, the 2008 incident in Mumbai, we have seen LET expand 
its stated objectives of liberating Kashmir to an embrace of 
global jihad against the West. In my opinion, resolving the 
dispute on Kashmir should be a crucial component of any 
military plan to defeat the militants and stabilize Pakistan.
    I do not know how the problem in Kashmir will ultimately be 
solved, however I personally believe that the people of Kashmir 
should be given the plebiscite that they were promised by the 
United Nations back in the '40s. I have been a very strong 
supporter of a plebiscite on Kashmir and to let the Kashmiri 
people have the voice that they should have for a long time. 
And there have been thousands and thousands of Indian troops up 
there in that region imposing what in effect is martial law, 
and it has been a real problem.
    And I talked to President Musharraf and Prime Minister 
Singh about this when I was over there not long ago, and they 
came close to finding a compromise when they presented a 
proposal to pull the troops out of the cities and open 
crossings between India controlled Kashmir and Pakistan 
controlled Kashmir and allow the people to largely govern 
themselves. If this effort had been successful, I wonder if we 
would be looking at a different Pakistan today.
    And I would just like to add one other thing in here before 
I go on with my statement, and that is, I really believe 
Kashmir, the Kashmir problem, could be resolved if we could get 
the leaders in Pakistan and India to sit down together and look 
at this from a realistic point of view. It might take the wind 
out of the sails of some of the terrorist organizations. And 
so, while we don't have a lot of television cameras here today, 
I hope that this message goes out to anybody beyond this room 
that they know that I feel very strongly that India and 
Pakistan ought to sit down and work this out so the people of 
Kashmir get what they have been promised for the last 50 or 60 
years.
    Nevertheless, the immediate problem is confronting and 
destroying terrorist groups like al-Qaeda and LET before they 
can bring down another, either the Afghan or Pakistani 
Government and once again allow the region of the world to 
become a base for terrorists who want to kill as many of the 
people as they possibly can, it gets no clearer than that. Much 
like our efforts to eliminate al-Qaeda though, eliminating LET 
is proving to be a very daunting task as LET enjoys a 
stronghold, as the chairman said, and safe haven in parts of 
Pakistan.
    Furthermore, as Jeremy Khan, author of the recent Newsweek 
article, ``The next al-Qaeda,'' pointed out, LET's parent 
organization has developed a large charity arm that is popular 
in both Punjab and Kashmir, where it runs schools and ambulance 
service, mobile clinics, and blood banks. It earned tremendous 
good will in Kashmir providing assistance after the 2005 
earthquake, and I was over there and saw some of the damage 
that was done. As Khan warns in his article, moving against it 
could provoke civil unrest or even civil war.
    And that is why I think it is important that in addition to 
the problems we face in Afghanistan and Pakistan with the 
Taliban and al-Qaeda that we really take a hard look along with 
our allies Pakistan and India in trying to resolve this problem 
of Pakistan and Kashmir and Punjab as a way of de-emphasizing 
this problem and maybe slowing down the terrorist threat that 
is posed by LET. Clearly, that is no easy task, but we can't 
shy away from it as the stakes are too far too high.
    As Pakistan goes, so goes Afghanistan, and while I disagree 
with the President on many foreign and domestic policy 
questions, I do believe that President Obama was right a few 
months ago when he declared the conflict in Afghanistan as not 
a war of choice, this is a war of necessity, this is 
fundamental to the defense of our people. I believe the 
President is also right to treat Afghanistan and Pakistan as 
one conflict. A destabilized Pakistan can only lead to a 
destabilized Afghanistan because the threat in Afghanistan 
feeds off the threat in Pakistan and vice versa.
    Victory is definitely possible, but it is not going to be 
easy. There is nothing easy about war, and this is especially 
true in these types of counterinsurgency efforts. These efforts 
require our troops to get out and do everything they can to 
gain the support of the populace and help them to rebuild. 
However, if we and our allies, including the Governments of 
Afghanistan and Pakistan, go all in and do what is required, we 
can still win. I look forward to hearing from our expert 
witnesses regarding what they feel is the winning formula for 
success.
    But I want to emphasize one more time--and I realize that I 
have gone over my time, Mr. Chairman--and that is that I have 
been working on this Kashmir and Punjab issue for years now, 
and even you and I have had some debates on it over the years, 
and I don't believe we are ever going to solve that problem up 
there in Kashmir until India and Pakistan sit down together and 
say, what can we do to solve the problem so the people in 
Kashmir feel like they have a legitimate voice as was promised 
to them in the '40s, late '40s. And if we can get them to do 
that and include in the discussions the people from Kashmir, I 
think that we can defang in large part the LET, which has 
become a bigger threat. And with that, thank you, Mr. Chairman.
    Mr. Ackerman. Thanks the ranking member. We will proceed 
now to introducing our distinguished panel. Dr. Marvin Weinbaum 
is a scholar-in-residence at the Middle East Institute. 
Previously Dr. Weinbaum was an analyst in the Bureau of 
Intelligence and Research at the Department of State, where he 
focused on Afghanistan and Pakistan. Dr. Weinbaum has also been 
director of the South Asian and Middle Eastern Studies program 
at the University of Illinois, senior fellow at the U.S. 
Institute of Peace, and has held the Fulbright research 
fellowships in Afghanistan and Egypt.
    Ms. Lisa Curtis is a senior research fellow on South Asia 
at the Heritage Foundation. Before going to Heritage, Ms. 
Curtis worked for the Senate Foreign Relations Committee as a 
professional staff member heading the South Asia portfolio for 
Senator Luger, former chairman of the committee. From 2001 to 
2003 she served as senior advisor to State Department's South 
Asia Bureau, where she advised the Assistant Secretary for 
South Asia on India-Pakistan relations.
    Dr. Ashley Tellis is a senior associate at the Carnegie 
Endowment for International Peace. Commissioned into the 
Foreign Service, Dr. Tellis served as a senior advisor to both 
the U.S. Ambassador in New Delhi and to Under Secretary of 
State for Political Affairs Nick Burns, as well as serving on 
the National Security Council Staff as a special assistant to 
the president and senior director for strategic planning in 
South Asia. Prior to his government service, Dr. Tellis was a 
senior policy analyst at the Rand Corporation.
    Mr. Shuja Nawaz is the director of the South Asia Center at 
the Atlantic Council of the United States. Prior to joining the 
Atlantic Council, Mr. Nawaz held senior positions at the 
International Monetary Fund, the World Health Organization, and 
the International Atomic Energy Agency in Vienna. Dr. Nawaz was 
also a newscaster and producer for Pakistani television and 
covered the 1971 war with India from the western front. I want 
to thank our panel for being with us today.
    Mr. Burton. Chairman, before we go to our panel, our 
colleague from California just came and he has a short opening 
statement he would like to make if it is all right with you, 
sir.
    Mr. Ackerman. Well, he can make as long a statement as he 
has.
    Mr. Burton. Okay.
    Mr. Royce. That is very kind of you.
    Mr. Ackerman. Mr. Wilson--Mr. Royce, sitting in Mr. 
Wilson's chair.
    Mr. Royce. Thank you, Mr. Chairman, for calling this 
hearing. Al-Qaeda has been our focus since 9/11. Yet the LET, 
the Pakistani based jihadist group that carried out the days 
long rampage in Mumbai, India, demands our attention. We will 
hear words today on the threat from the LET, but nothing more 
powerfully presents that case than the recent documentary, 
``Terror in Mumbai.'' For those of you who have not seen it, I 
really suggest you do, because there you see the terrorists and 
you hear their words as they receive instructions from the 
controller safe in Pakistan.
    You hear the handler, anxious for the terrorists to hit the 
Jewish Cultural Center: ``Every person you kill where you are 
is worth 50 of the ones killed elsewhere.'' Lashkar e-Tayyiba, 
or ``Army of the Pure,'' traces its roots to Afghanistan and 
the war against the Soviets, where Pakistani intelligence 
backed it. I should also say that part of its intellectual 
roots are in the Muslim Brotherhood, and frankly some of the 
architects come out of the Middle East for the LET. But 
afterwards, Pakistan's ISI refocused LET to fighting India over 
disputed Kashmir.
    Given LET's deep roots within Pakistan's security services 
and its popular charity services, Pakistan is in a delicate 
dance ``with a Frankenstein of its own making,'' notes a former 
top counterterrorism official. Reading today's testimony, it is 
clear that another Mumbai could happen again, along with all 
the accompanying tensions of two nuclear armed rivals that it 
would bring. But this isn't just India's problem. Mr. Chairman, 
Frankenstein is going global.
    The director of national intelligence just testified that 
LET is ``becoming more of a direct threat'' and ``placing 
Western targets in Europe in its sights.'' Disturbingly, an 
American citizen was at the heart of the Mumbai attacks. He is 
now awaiting trial. Reportedly, a captured LET laptop contained 
a list of 320 potential targets, many outside of India. How 
many are American targets? As Lisa Curtis will testify this 
afternoon, ``overlooking the activities of LET in Pakistan is 
equivalent to standing next to a ticking time bomb waiting for 
it to explode.'' Mr. Chairman, the clock is running, and I 
thank you for holding this hearing. I yield back, Mr. Chairman.
    Mr. Ackerman. Thank you very much. We are joined by Mr. 
Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it so 
much. Good afternoon, and welcome to our distinguished panel of 
witnesses today. I appreciate the chairman calling this hearing 
and allowing us the opportunity to learn more about the 
emerging global threat of the Pakistani based terrorist group 
LET. I am very concerned with how much of the people of 
Pakistan have suffered as a result of terrorists operating in 
western Pakistan and Afghanistan.
    Sadly, these terrorist groups have targeted religious 
minorities and other Pakistanis who oppose them. The most 
recent incident involved the Taliban capturing and beheading a 
Pakistani Sikh. While Pakistan has cooperating with the U.S. to 
combat these terrorist groups, it is vital that the U.S. 
develop a more comprehensive strategy with Pakistan in dealing 
with the threat of other terrorist groups and religious 
extremists that threaten both Pakistani and international 
security.
    The LET involvement in the Mumbai bombings in late 2008 and 
their growing involvement in attacks on the West necessitate 
the Pakistan end all ties with these terrorist groups and work 
to eliminate the threat they pose to the West. In light of 
these challenges, I look forward to hearing what the panel has 
to say about the threat of the LET and their suggestions for 
how this threat should be addressed. Again I thank you for your 
testimony this afternoon. Thank you, Mr. Chairman, I yield back 
the balance of my time.
    Mr. Ackerman. We will now go directly to our previously 
introduced panel. Dr. Weinbaum?

STATEMENT OF MARVIN WEINBAUM, PH.D., SCHOLAR-IN-RESIDENCE, THE 
                     MIDDLE EAST INSTITUTE

    Mr. Weinbaum. Thank you. Lashkar e-Tayyiba has evolved from 
being a government sponsored Pakistani jihadi group dedicated 
to the insurgency in India and Kashmir into a terrorist 
organization with regional and global ambitions and reach. In 
the U.S. focus on al-Qaeda, it has failed to take into full 
account the presence of other organizations capable of 
surpassing and replacing al-Qaeda as a terrorist threat 
worldwide. LET is probably the leading candidate for such a 
role.
    It exceeds al-Qaeda in its capacity for recruitment and 
fundraising across the Islamic world. Unlike al-Qaeda, LET has 
strong societal roots and enjoys the protection of the 
institutions of a state. LET is determined to use violent means 
to inflict damage on American and Western interests 
internationally. Despite its transnational views that envision 
the emergence of a ``caliphate'' across the Islamic world, the 
organization champions militant Pakistani nationalism and 
thrives on its association with domestic charitable activities.
    LET was originally the offspring of a group called Markaz 
Al-Dawa-Wal-Irshad, which was founded in the early 1980s by a 
Palestinian who was for a time at least an ideological mentor 
to Osama bin Laden. This parent organization created a military 
wing which was the LET in 1990. LET was principally designed to 
provide Pakistan's military with a proxy force of recruited 
fighters to augment the Islamic insurgency in India and 
Kashmir. But by the late 1990s, LET was engaged as well in 
training Islamic militants in Afghanistan and Pakistan coming 
from countries ranging from Egypt to the Philippines.
    In 2001, LET's parent organization changed its name to 
Jamaat-ud-Dawa, and LET, the following year, was banned by the 
Pakistan Government, it simply folded itself into the charity 
organization. The organization directs a wide network of social 
services and institutions, including Madrassas, secondary 
schools, and a major medical mission. It receives funding from 
mosque collections, expatriate Pakistanis in the Gulf and 
Britain, Islamic NGOs, and Pakistani and Kashmiri businessmen.
    Like other extremist organization, it also draws money from 
drugs and smuggling. There are suspicions that it gets direct 
financial assistance from the Pakistani Inter-Services 
Intelligence agency as well. When Pakistan in 2002 curtailed 
its assistance to Pakistani insurgents after a U.S. broke its 
ceasefire that year in Kashmir, the organization with the 
knowledge of the ISI shifted most of its training camps and 
militant operations to the western border with Afghanistan.
    Despite the government's ban of LET, Pakistan's ISI 
continues to consider the organization an asset. The ISI is 
believed to share intelligence and provide protection for LET. 
We could talk about if we had time Muhammad Saeed and his 
virtual impunity and what that demonstrates. Let me say that 
there has been reciprocation on the part of LET and that it has 
refrained from involvement in attacks against the Pakistan army 
and against Pakistani civilians.
    In fact, although it is very definitely part of the 
terrorist network which includes the Tehriq-e Taliban, the 
Pakistan Taliban, and al-Qaeda and the Haqqani network, it is 
viewed by some of the jihadi groups as being too soft on the 
state of Pakistan, and other extremist groups are skeptical of 
its linkages with ISI. The current leadership in Pakistan may 
recognize, as it turns out, better than any previous government 
the dangers that LET and its groups pose to the state.
    But the organization's deep penetration of the country's 
social fabric makes any attempt to reign it in by the 
beleaguered People's Party impossible without the military's 
full commitment. Moreover, party and provincial politics in 
Pakistan adds a further obstacle. The major opposition, the 
Nawaz Sharif's Muslim League resists a challenge to the feared 
LET that could put at risk the party's ascendant position in 
the Punjab. I assume my time has just about run out, 
unfortunately.
    [The prepared statement of Mr. Weinbaum 
follows:]Marvin Weinbaum

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. Thank you very much.
    Ms. Curtis? Everybody's full statement will be part of the 
record.

  STATEMENT OF MS. LISA CURTIS, SENIOR RESEARCH FELLOW, ASIAN 
            STUDIES CENTER, THE HERITAGE FOUNDATION

    Ms. Curtis. Thank you very much, Chairman Ackerman, Ranking 
Member Burton, and thank you very much for holding this very 
important hearing. The Lashkar e-Tayyiba was not a widely known 
group before the 2008 attacks on Mumbai, but its links to al-
Qaeda go back over a decade, and it has long posed a threat to 
vital U.S. national security interests including promoting 
stability in South Asia and degrading the overall terrorist 
threat emanating from the region.
    Although its primary focus has been India, its sharp anti-
West ideology, willingness to kill innocents on a massive 
scale, and operational ties to al-Qaeda, should have raised 
alarm bells in Washington long ago. Instead, the U.S. 
Government has tended to view the LET primarily through the 
Indo-Pakistani prism, and thus has not taken the group as 
seriously as it has al-Qaeda. That attitude has proved short 
sighted.
    The arrest of Pakistani-American David Coleman Headley at 
Chicago's O'Hare Airport on October 3rd, 2009, may mark one of 
the most significant counterterrorism breakthroughs since 9/11. 
Headley was arrested for conspiring with the LET in Pakistan to 
conduct attacks in India and for plotting an attack on the 
Danish newspaper that first published controversial cartoons of 
the prophet Mohammed in 2005. Headley traveled frequently to 
Pakistan, where he trained with the LET. He also went to India 
where he scouted sights for the Mumbai attacks as well as 
sights for future attacks including on India's National Defense 
College in New Delhi and two well known boarding schools.
    The findings from the Headley investigations have awakened 
U.S. official to the gravity of the international threat posed 
by Pakistan's failure to crack down on terrorist groups 
including those that primarily target India. The Headley 
investigations are changing the way the U.S. Government views 
the LET. State Department Counter-Terrorism Coordinator Daniel 
Benjamin, for instance, recently said that the Headley 
investigations show the LET has global ambitions and is willing 
to undertake bold, mass-casualty operations.
    But what is most troubling about the Headley case is what 
it has revealed about the proximity of the Pakistan military to 
the LET. The U.S. Department of Justice indictment that was 
unsealed on January 14th names a retired Pakistani Army Major 
as Headley's handler. While the allegations do not point to any 
serving Pakistani army or intelligence officials as being 
involved in the Mumbai attacks, they do reveal the Pakistan 
army's past support and continued toleration of the LET 
contributed to the group's ability to conduct those attacks.
    It took several months for Islamabad to admit publicly that 
Pakistanis had been involved in the Mumbai tragedy. Islamabad 
did eventually arrest seven LET operatives, including those 
that India fingered as being the masterminds of the attack. 
However, there are indications that the LET as an organization 
continues to operate relatively freely in the country. On 
February 5th, for example, Hafiz Muhammad Saeed, one of the 
cofounders of the LET, addressed a crowd of thousands in 
Lahore, Pakistan, where he called for additional attacks on 
India. Eight days later, terrorists bombed a German bakery in 
Pune, India, killing at least 15.
    Saeed's release from jail and ability to hold public 
rallies sends a strong signal that terrorism will be tolerated 
in Pakistan. Now, the degree of control that the Pakistani 
intelligence services retain over LET's operations remains an 
open question. Some Pakistani officials claim al-Qaeda has 
infiltrated the LET and that elements of the LET were 
freelancing. Regardless of whether the Pakistani authorities 
did or did not have control of the group that carried out the 
Mumbai attacks, they are now responsible for taking actions 
that close down the group.
    Therefore, the U.S. must develop policies that approach the 
LET with the same urgency as that which the U.S. deals with the 
threat from al-Qaeda. The Mumbai attacks and the Headley 
investigations reveal that the LET has the international 
capabilities and the ideological inclination to attack Western 
targets whether they are located in South Asia or elsewhere. 
The U.S. must convince Islamabad to take decisive action to 
neutralize the LET before it can conduct additional attacks 
that could well involve Western targets and possibly 
precipitate an Indo-Pakistani military conflict.
    Moving forward, the U.S. needs to closely monitor Pakistani 
actions to dismantle the LET. Merely banning the organization 
has done little to degrade its capabilities. The U.S. should 
also avoid conveying a message that the U.S. is more interested 
in some terrorist groups than others, which only encourages the 
Pakistani leadership to avoid confronting the LET. Washington 
also should repeat messages like that of Defense Secretary 
Robert Gates, when he wrote in a recent op-ed about the 
futility of trying to distinguish between terrorist groups that 
share more commonalities than they do differences. Lastly, the 
U.S. should assure Pakistani leaders that the U.S. will monitor 
closely India's military posture toward Pakistan as it seeks to 
dismantle dangerous groups like the LET. Thank you.
    [The prepared statement of Ms. Curtis 
follows:]Lisa Curtis 


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. Thank you.
    Dr. Tellis?

 STATEMENT OF ASHLEY J. TELLIS, PH.D., SENIOR ASSOCIATE, SOUTH 
    ASIA PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Tellis. Mr. Chairman, Mr. Ranking Member, thank you for 
inviting me this afternoon. Last year I had the opportunity to 
testify before the Senate Committee on Homeland Security on the 
LET as an organization and its ideology. I won't go over the 
substance of that testimony again here, but I wanted to focus 
on the issue that I was asked to, which is the impact of LET on 
India-Pakistan relations. Let me summarize my testimony today 
in the form of eight propositions.
    First, let me affirm what others have said before me, that 
the LET today, after al-Qaeda, remains the most important 
terrorist group that operates in South Asia. But what is 
important to recognize is that it has become the spearhead of 
the Pakistan military's campaign against India. This campaign 
no longer consists of fomenting insurgencies within India, as 
was the case in the 1990s. In the early 1990s, the Pakistan 
military sought to exploit domestic discontent within India, 
and exploit it for its own purposes. After 1993, the strategy 
changed. It moved from exploiting domestic discontent to 
unleashing terrorism, which is aiding groups whose only purpose 
of existence is to engage in indiscriminate attacks against 
civilians throughout the length and breadth of the Indian 
landmass.
    The second proposition, LET has grown enormously in 
competence and its capabilities. Its capacity to engage in 
terrorist attacks worldwide has increased. But today, it does 
not need the constant operational support that it once needed 
from the ISI to conduct these operations. Yet, the tight 
organizational linkages between LET and the ISI persist to this 
day, even though Pakistan remains officially an ally of the 
United States in the war on terror and even though Pakistan 
officially has banned LET and its parent organization.
    Third, the Pakistan army and the ISI have certain 
objectives with respect to LET. They seek to modulate its 
terrorism, not to end it. They seek to modulate it in order 
that its actions do not embarrass the Pakistani state or 
provoke a major Indo-Pakistani war. But the record since 2001 
shows clearly that they have no intentions of putting LET out 
of business.
    Fourth, it is important that the United States recognize 
Pakistan's deep investments in the LET and cease to refer to 
LET as if it were an independent actor whose actions are 
intended to embarrass the Pakistani state. Rather, LET remains 
to this day an instrument of the Pakistani intelligence 
services. The investigations that have occurred in the context 
of the Headley case demonstrate clearly ISI's links with the 
attacks that took place in Bombay.
    Fifth, it is to President Obama's credit that he has made 
it an important objective that Pakistan target LET if a new 
U.S.-Pakistan strategic relationship is to be sustained. I 
believe a U.S.-Pakistan strategic relationship is in the 
interest of both countries. But thus far, the Pakistani state 
has been unresponsive to the President's entreaties to suppress 
LET. Sixth, the most immediate challenge that LET poses for the 
United States is the risk that its operations in India will 
provoke a crisis in India-Pakistan relations that end up with 
the threat of war. If we have been lucky to escape that problem 
so far, it has been largely because Prime Minister Manmohan 
Singh has been forebearant in terms of his response to 
Pakistan.
    Seventh, despite the provocations posed by LET's actions, 
Prime Minister Singh has yet made another attempt to restart 
the dialogue with Pakistan. But by all accounts, this dialogue 
is unlikely to be fruitful in the near term for want of a 
suitable partner in Pakistan capable of conducting a dialogue 
that leads to the agreement that the ranking member rightly 
pointed out is necessary if we have to close the books on this 
group.
    Eighth and last, all U.S. efforts so far to encourage 
Pakistan to suppress the LET have failed. I think we need to 
face up to that fact. And therefore we will have to 
increasingly consider what is a very unpalatable possibility, 
that we might have to target LET and its operatives 
unilaterally as part of our efforts in Pakistan and 
Afghanistan. Thank you very much for your attention.
    [The prepared statement of Mr. Tellis 
follows:]Ashley Tellis 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. Thank you.
    Mr. Nawaz?

 STATEMENT OF MR. SHUJA NAWAZ, DIRECTOR, THE SOUTH ASIA CENTER

    Mr. Nawaz. Thank you, Mr. Chairman, Ranking Member 
Congressman Burton, and members of the committee, I am honored 
to speak before you today. Today's topic is at the heart of the 
dangers that confront Pakistan today. The Lashkar e-Tayyiba 
represents a word that has been used often, a Frankenstein's 
monster created for the purpose of assisting the Kashmiri 
freedom movement but that ended up becoming a powerful Sunni 
Punjabi movement with an independent agenda that appears to 
have taken on a broader regional role.
    It was born out of the U.S. backed Afghan jihad against the 
Soviets and built on the training provided by that war to 
Punjabi fighters who could then inculcate Kashmiri fighters in 
their ways. Successive civil and military leaders of Pakistan 
supported the movement as a strategic asset to counter a 
powerful India to the east and to force it to negotiate for a 
settlement of the disputed territory by waging a war of ``a 
thousand cuts.'' Over time, however, the sponsored organization 
took a life of its own, finding the economically disadvantaged 
area of central and southern Punjab to be fertile territory for 
recruitment of jihadi warriors.
    In a country, Mr. Chairman, where the median age is 
estimated to be 18 years, and hence half the population of 175 
million is below that age, the recruitment pool of unemployed 
and impressionable youth is large. The attraction of the 
militant's message cannot be countered by military might alone. 
It has to be addressed at the core by changing the underlying 
socioeconomic conditions that foster militancy as a passport to 
a better life here and in the hereafter.
    LET spread its wings nationwide using its contacts to raise 
funds from the public and gradually has attained autarkic 
status. It spun off a social welfare organization, the Jamaat 
ud Dawa, that proselytizes on behalf of the LET while providing 
much needed social services. In doing this, the LET was playing 
to the weakness of the corrupt political system of Pakistan 
that failed to recognize and meet the basic needs of its 
population at large while only catering to the elites.
    Over time, the Inter-Services Intelligence began losing its 
control as the LET became self sufficient. But the realization 
that the LET had become autonomous was slow in being understood 
or accepted in the ISI and by the military leadership of 
Pakistan under General Pervez Musharraf. Now, General Musharraf 
did make an effort to lower the political temperature in 
Kashmir and began distancing the state from the LET. However, 
the process was not handled as well as it could have.
    Similar to the disbanding of the Iraqi army after the U.S. 
invasion, when thousands of trained soldiers and officers were 
let go, the LET was cut loose without a comprehensive plan to 
disarm, retrain, and gainfully reemploy the fighters. A 
dangerous corollary was the induction into the militancy of 
some former members of the military who had trained and guided 
them in their war in Kashmir.
    What should we do? I believe that it may not be too late to 
assist Pakistan in crafting a plan to reach out to the fighters 
of the LET and other Punjabi militant organizations and by 
involving their extended families in the process provide 
trainings and stipends to wean them away from their militant 
path. The extended family unit can play a role in ensuring 
against recidivism on the part of the fighters.
    Simultaneously it is critical to focus on drastically 
changing the Islamist curriculum of public schools, a vestige 
of the period of General Zia-ul-Hap's rule, and invest in south 
and central Punjab to create job opportunities that would lift 
up the relatively backward population of this area. Mr. 
Chairman, enough evidence exists now to link the Sunni militant 
groups Sipah-e-Sahaba and Jesh Muhammad with al-Qaeda and the 
Taliban, and the LET's emerging role as a trans-regional force 
that has broadened its aim to include India and perhaps even 
Afghanistan.
    By linking with the students Islamic movement of India and 
the Harkat-ul-Jihad-al-Islami of Bangladesh, it poses a serious 
threat to regional stability. As has been said before, another 
Mumbai type attack involving the LET might bring Pakistan into 
conflict, a prospect that should keep us awake at night. Now, 
it appears that the army's recent actions has dislocated the 
Teriki Taliban of Pakistan, yet it faces a huge, and to my mind 
greater, threat in the hinterland in the form of the LET.
    My own research into the recruitment of the Pakistan army 
over 1970 to 2005 indicates that the army is now recruiting 
heavily in the same area from where the LET springs. Unless we 
change the underlying social and economic conditions there, the 
Islamist militancy will start seeping into the military. Mr. 
Chairman, I am grateful that this committee is focusing on this 
issue, and thank you for allowing me to share some of my ideas. 
I shall be glad to take questions.
    [The prepared statement of Mr. Nawaz 
follows:]Shuja Nawaz


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. Thank you, and thank all of you. Well, it 
seems we have a unanimity in a panel in that everybody is an 
alarmist. Now where do we go? I think there is also general 
agreement that the ISI/Pakistani military has been complicit in 
creating the Frankenstein monster, seems not to be able to 
control the Frankenstein monster, they are still able to 
influence it, and that if I am not mistaken everybody made 
reference to a belief or suspicion that the Frankenstein 
monster can live independently even were it not receiving 
substantial support from the Pakistan military. I would surmise 
if that is accurate that the Pakistan military could make it a 
little bit more difficult and uncomfortable.
    The threat that this posed in the creation of this 
terrorist that everybody considers an international terrorist 
group at this point, everybody on the panel, the question is 
whose responsibility is it? The answer to that is everybody's, 
because it is international. My question is, in addition to how 
big is this Frankenstein monster--can anybody quantify the 
number of people or the rate of growth that it might have? But 
what strategy might be employed and what expectation might 
there be that we get Pakistan, its military and the 
intelligence services, to determine that LET is no longer 
useful, is counterproductive, and to concur in the fact that it 
must be done away with? That is a big question. Let us start 
with Dr. Weinbaum.
    Mr. Weinbaum. With regard to your question, Congressman, I 
think something else has to happen, and that is the attitude of 
the people of Pakistan. I think it is more than simply a 
decision here on the part of the government, which would be 
very difficult without a different view of particularly the 
charity work with which LET is associated, although not the 
name LET. We have a larger task here. It is part of this larger 
problem that we see here about the poisonous atmosphere that 
exists and the willingness of people to accept conspiracy 
theories as facts.
    So this is a formidable task, of course, but it is more 
than simply convincing the elites in Pakistan what to do, I 
don't believe that there is any likelihood that they are going 
to move without a change of attitude by the people of Pakistan, 
and what that means is that they have to be addressing the 
people themselves and pointing out what counterproductive ways 
in which LET is operating for the security of Pakistan.
    Mr. Ackerman. I think, before going down the rest of the 
line, I think the dilemma the world is facing is that all of 
these groups, whether it be Hammas or Hezbollah or LET or Robin 
Hood and his Merry Men, have captured the imagination of the 
general population by providing social services that 
governments have not provided to a rather desperate people and 
societies. And without being accused of being a wild-eyed 
liberal and saying, you know, thinking we have to just 
redistribute the wealth in the world, certainly you have to 
give poor people and disadvantaged people a stake in their own 
societies in those countries that we are talking about where 
there is none. That is a huge undertaking. In the mean time, 
somebody has to provide law and order and get rid of bad guys. 
You know, it will be generations before you can build up the 
economy of any of these places to Scandinavia. Anybody just 
want to comment on that? My time is over but Ranking Member is 
concurring in my generosity to myself. Mr. Nawaz?
    Mr. Nawaz. Thank you, Mr. Chairman. Since I have spent a 
substantial portion of my life at the IMF and the World Bank, I 
believe that economics is at the heart of it and you have quite 
rightly identified that. But I believe that it is possible to 
accelerate the process of change, and it has to be an internal 
process of change, it is not something that will come from 
outside. First of all, a recognition by Pakistan that it faces 
an existential threat from within and not from outside.
    Secondly, the possibility of opening those areas where the 
terrorist groups and the extremists are recruiting heavily, and 
my research on this indicates as well as juxtaposed against the 
recruitment of the Pakistan military, it is central and 
southern Punjab. It is a vast area, very heavily populated, the 
military cannot take military action given the fact that it is 
now fighting on the western frontier.
    So what is the best way? The best way probably is to open 
up the economies of this. And what is the best way of opening 
up the economy of the Punjab is to open up the border with 
India. The moment you return to trade of 70 percent between 
India and Pakistan instead of the 2 or 3 percent that it is 
currently of GDP, you can I think overnight transform that 
region. The kind of employment generation that will occur on 
the Indian side of the border as well as on the Pakistan side 
of the border will make it impossible for people to be lured 
away by the kind of payments that the terrorist groups now 
make.
    Mr. Tellis. If I may make two points. First I would like to 
qualify the analogy of the Frankenstein's monster. We think of 
it as the Frankenstein's monster. I don't think the Pakistani 
state thinks of the LET as a Frankenstein's monster, because 
the LET as Dr. Weinbaum has pointed out has been very careful 
not to attack state interests in Pakistan, to maintain its 
links with key institutions like the Pakistani intelligence 
services. And so the idea that somehow this is a organization 
that is going to turn back and bite the Pakistani state, that 
urgency is certainly not shared by key institutions in 
Pakistan.
    Secondly with respect to dealing with the challenge, LET 
certainly has two streams. There is a civilian stream that is 
focused on its charities, but there is a very distinct military 
stream that is involved in its operations, and there is no 
reason why in principle the Pakistani state cannot make a 
distinction between these two streams. These are two different 
categories of people. The people who go out to do charitable 
work are not the people who do the gunrunning and who do the 
killing. If the Pakistani state decided that it wanted to go 
after the military components while leaving the civilian or the 
charitable components aside, it could. The reason it won't is 
because it does not really accept the fundamental analogy of 
the Frankenstein's monster.
    Ms. Curtis. Mr. Chairman, if I might just emphasize Dr. 
Tellis's point that we may be missing the forest through the 
trees here. There are steps that the Pakistan Government, 
namely the Pakistan military and intelligence services, can 
take. Number one, they can prevent Hafiz Muhammad Saeed from 
making provocative statements calling for attacks on India. 
That has nothing to do with charity work. They can disrupt the 
ability of this group to train on Pakistani territory, to 
finance itself.
    And I also want to point out I don't see the LET as having 
this broad support base in Pakistan. In fact, I would like to 
quote Pakistan's former Information Minister, Sherry Rehman, 
who said shortly after Hafiz Muhammad Saeed made this very 
provocative statement, she said this in Parliament, ``What is 
the point of our innocent civilians and soldiers dying in a 
borderless war against such terrorists when armed, banned 
outfits can hold the whole nation hostage in the heart of 
Punjab's provincial capital?'' So the point is, this group is 
not widely supported in Pakistan, in particular by the civilian 
leadership, and if we want something done, we need to prevail 
particularly on the Pakistan military to take steps to prevent 
this group from being able to operate militarily.
    Mr. Ackerman. Mr. Burton?
    Mr. Burton. You know, I have been involved along with the 
chairman probably for 15 or 20 years on the Kashmiri and Punjab 
issue, and I believe after all the years I have talked to 
people from Kashmir and Punjab and Pakistan and India that 
until you solve the problems up in Punjab and Kashmir you are 
never going to solve the problems that you are talking about 
today, it just is not going to happen. You know, it is just not 
going to happen.
    Now, you have got a nuclear power in Pakistan and you have 
got a nuclear power in India, and if all hell breaks loose, it 
is going to be a mess there. Everybody knows that, it could 
disrupt the whole region. And then you have got of course Iran 
over there trying to develop a nuclear capability, it just 
could be a horrible situation. But the thing that bothers me is 
that for 20 years now, and the chairman and I have had our 
differences over this, there has been no resolution of the 
Kashmir province.
    Since 1947 when they had partition, the U.N. resolution 
that dealt with Kashmir has never been carried out, there has 
never been a plebiscite on that up there. India has claimed it, 
and there has been a lot of reasons why some royal leaders up 
there have ceded some of the territory to India, which I am not 
sure they had the ability to do, but nevertheless it has 
continued to be a problem, and the people in Kashmir where a 
lot of this has started, they are not going to stop. And they 
are going to get support from people who are sympathetic to 
them from military or religious standpoint.
    And so I don't know why our learned experts here, and I 
know you are very knowledgeable, and the people in the military 
in India and in Pakistan, don't realize that everybody is 
walking around with a fuse in their hand that could blow up at 
almost any time. The Mumbai attack could have precipitated 
something but cooler heads did prevail. But I have seen, they 
have brought me pictures time and time again of people who had 
been disemboweled and sewed up and thrown in rivers up there in 
Kashmir and the people who had been tortured and killed in 
Punjab by the military, and I am sure there is atrocities 
coming the other way as well, but it is not going to go away.
    And you know, I don't know how many hearings we have had on 
these subjects but there have been a lot of them, and everybody 
talks about, today it sounds like predominantly that Pakistan 
and their connection with the LET and other things are mainly 
responsible and I am sure there is a lot of blame there, but 
there is blame on the other side too. And I wish all of the 
experts and the people in the governments involved as well as 
the United States would make as their number one goal resolving 
the issues that have been prevailing for a long, long time, and 
that is resolving the issue of Kashmir.
    And I think the only way to do that is to get the Pakistani 
Government and the India Government and the people in Kashmir 
together and resolve some way for them to solve that problem in 
Kashmir that has been existing since 1948. And until you get 
that done, you are not going to solve this problem. And India 
can't attack Pakistan because if they do Pakistan has got the 
ability to retaliate with a nuclear weapon and vice versa. And 
so the killing is going to go on, and the festering that is 
created from this impasse is just going to grow.
    And I just asked my staff how many people live up there, 
and there is at least 10 million people, so there is a 
reservoir of people to become terrorists. A lot of these young 
people, I mean they hear their parents and they see the things 
that is happening with the Indian troops occupying that area 
and they have seen the atrocities on both sides, and they say, 
you know, to hell with it, let us just fight them, we will kill 
them. And it just gets worse and worse and worse.
    So that is why I went over there and I talked to Prime 
Minister Singh personally, and I talked to President Musharraf 
personally, and they had opened a small opening in the border 
so that there could be some communication and traveling back 
and forth. But as far as moving troops back from Kashmir, even 
50 miles or 25 miles so that they could feel a little autonomy 
there and actually start discussions on how to solve the 
problem, you know, I just don't think it is going to be 
resolved.
    And I think as the chairman said, you know, this is kind of 
like the Gordian knot. And the Gordian knot by Alexander was 
not untied, he just chopped it in two, and I think the way to 
chop this in two is to get the parties together. And the United 
States has been working in the Middle East between the 
Palestinians and the Israelis for years, and the Egyptians and 
the Lebanese and all the countries involved, Jordan, to try to 
solve their problems.
    Mr. Ackerman. Gentleman is yielded an additional 5 minutes.
    Mr. Burton. Well, I am not going to take that much time, 
Mr. Chairman, I am just feeling exasperated, and I know you 
feel that way too because we have talked about this on the 
floor, this has been going on forever, and it is an issue that 
could blow up at any time into something much larger than what 
we have seen in Mumbai or any of the other attacks over there. 
And all we do is we keep talking about who is at fault and who 
is doing this and who is doing that. We ought to look at the 
U.N. resolutions of the late '40s, which are still in effect, 
and we ought to try to live up to those. And there has got to 
be some way to do that and to cut through this Gordian knot.
    And I really appreciate the expertise of the people here, 
but I get so frustrated because I see the killing and I see 
this thing festering and getting into a bigger and bigger 
problem because there is no way to exhaust the kind of weapons 
these people can get, and they are going to be more and more 
sophisticated, and then you have got nuclear weapons. I mean we 
keep talking about it and tinking around with it, but nothing 
gets done and we run the risk of a major conflagration which 
could erupt if not now, 2 years in the future, 5 years in the 
future, because we aren't realistically looking at how to solve 
the problem.
    And the way to solve the problem is to do like we are 
trying to do between Palestine and Israel and get these people 
together and find out what they can all live with. And then if 
you do that, you start to do as I said earlier in my remarks, 
defang the terrorist groups. Because the reason they were 
originated is not just because of poverty, it is because they 
hate the Indians and they want their autonomy and they want the 
plebiscite they were promised and all that other stuff. So it 
is a combination of things. You can respond if you want to. 
Thank you, Mr. Chairman.
    Mr. Ackerman. Any takers? Dr. Weinbaum?
    Mr. Weinbaum. If I could just add on to the problem in a 
way. Because, without discounting the importance of LET in 
terms of the reconciliation between India and Pakistan and the 
spoiler role that it can play, I don't think we have given 
enough attention this afternoon to LET as a global 
organization. I believe that it has demonstrated that in the 
past its members, for example, took part in the Balkans, they 
were involved in the war in Tajikistan. What we see here is a 
capacity on the part of the LET that certainly which reaches 
into Afghanistan.
    If we should fail in Afghanistan, I think there is no doubt 
that the LET would become along with the Taliban a force here 
which has implications that go beyond just this area. I might 
mention that we know of at least 17 countries where the LET has 
chapters. So my point here is that, as much of a concern as the 
LET poses to Pakistan and to Indo-Pakistani relations, LET is 
evolving into something which is far greater, an organization 
which has by its own statements has global ambitions, and what 
I am also saying it is also developing a global capacity.
    Ms. Curtis. Just quickly, you talked about the problem and 
a possible resolution as being a plebiscite. But frankly, in my 
visits to the region I haven't heard support for the idea of a 
plebiscite. And in fact I think one of the most significant 
things that has happened over the last decade was President 
Musharraf actually dropping Pakistani insistence on having a 
plebiscite, and in fact he made a very important statement in 
December 2006 where he said Pakistan would be willing to give 
up its claim on Kashmir if four things happened.
    He said, if the line of control that divides Kashmir was 
made irrelevant--which means people could freely pass back and 
forth, goods could pass back and forth--two, if Kashmir was 
given greater autonomy, three, if both sides could figure out a 
joint mechanism to interact, to have the two sides of Kashmir, 
Pakistani Kashmir and Indian Kashmir, interact. So he made a 
very forward looking proposal, and as we know from Steve Coll 
who wrote about this in the New Yorker magazine not too long 
ago, they were very close to coming to some kind of agreement 
or understanding on Kashmir.
    So I think the point is the two sides are capable of moving 
forward. And I agree, they should sit down and do this, but I 
think we have to look at what right now at this moment, 2010, 
is preventing that. And I think that is where we have to in a 
sense, you do have to assess blame. If you want them to really 
get back to genuine negotiations then we have to look at what 
is holding that up at this particular moment.
    Mr. Burton. I just want to make a couple comments. The 
plebiscite was promised in 1948. I know what he said, and I 
think that is great, that is a great step in the right 
direction, because I talked to President Musharraf just about 
that. And the other thing I would like to say is that this is a 
breeding ground for the expansion of the LET, in my opinion. 
And I think that if we could figure out a way to solve this 
problem, as President Musharraf laid out, I think it would be a 
step in the right direction, which could possibly lead, maybe 
not, could possibly lead to helping reduce the aggressiveness 
of that organization. Because an awful lot of that stems from 
what was been going on for 20 years in Kashmir and that whole 
region.
    Mr. Ackerman. We will try to come back. Mr. Connolly?
    Mr. Connolly. Thank you, Mr. Chairman. And I would ask 
unanimous consent that my opening statement be entered into the 
record.
    Mr. Ackerman. Without objection.
    Mr. Connolly. Thank you, Mr. Chairman. And welcome to all 
of our panelists. I am going to try to squeeze in four 
questions, so if we could all be concise, that would be great. 
First question, what in your opinion is in fact the current 
nature of the relationship between LET and ISI, the Pakistani 
intelligence service? Who wants to begin? Mr. Nawaz?
    Mr. Nawaz. Well, yes, Congressman, I would be happy to 
address that. As I stated in my opening remarks, I think that 
relationship has changed over time, and that after President 
Musharraf made a decision to distance himself from the groups 
that were operating in Kashmir that there was a kind of a hands 
off approach, and I think it was not a part of a comprehensive 
plan. And it has backfired, as a result of which the group has 
basically become completely independent. But I did mention that 
the former trainers and associates from the ISI perhaps now 
have an opportunity of independently working with the LET.
    Mr. Connolly. Well, let me ask a follow-up question to 
that, because we have the same kind of problem frankly with the 
ISI and the Taliban. Are we to believe that the ISI can operate 
sort of a rogue mission independent of the central Government 
of Pakistan, or is it done with a wink and a blink from the 
central Government of Pakistan? Because we hear denials about 
that relationship with the Taliban as well, and yet we know 
that there are deep historical ties between the two.
    Mr. Nawaz. I don't believe the ISI acts independently of 
the government or the power centers in Pakistan, and I use my 
words very carefully. I think at the operational level, and 
particularly when you refer to Fatah, the border region, 
because of the nature of the recruitment pool of the operatives 
at the field there is a tremendous amount of ambivalence, 
because you have to go into the tribal system and recruit 
people there. So you cannot have 100 percent control over 
people in the field.
    Mr. Connolly. Anyone else on this? Dr. Tellis?
    Mr. Tellis. Let me answer that as specifically as I can. 
The relationship between LET and ISI is still extremely tight, 
and there are four specific dimensions of that relationship. 
The ISI protects the LET leadership, it gives safe haven to the 
cadres, and it provides protection to the leadership, that is 
number one. Two, it provides the organization with intelligence 
on specific threats to the organization and specific targets 
that may be of interest to the organization.
    Three, it provides campaign guidance when required. LET 
does quite well on its own and can do scouting of its own 
targets independently today, but there have been instances 
where ISI has continued to provide campaign guidance. And four, 
ISI continues to provide infiltration assistance, particularly 
when LET operatives have to go to third countries using the 
assistance of ISI stations. So there are four distinct ways in 
which LET and ISI operations continue to be coordinated.
    Mr. Connolly. Thank you.
    Ms. Curtis. I would just reiterate, I don't think ISI is a 
rogue operation, and they do have tight links with the Lashkar 
e-Tayyiba. But I would say what is most dangerous, it seems to 
be when you have these retired officials. In my opening I 
talked about the Headley investigations and how the U.S. 
affidavit names a former Pakistani Army Major as being the 
actual handler for Headley. And so the question is, did he 
leave on his own volition? Is he retired because that provides 
more deniability? So these are a lot of the questions that I 
think need to be asked.
    Mr. Weinbaum. I just have one comment, and that is to 
repeat something I said earlier, that as far as Pakistan is 
concerned, the LET does not present the same kind of threat 
that many of the other organizations, Lashkar Jhangvi 
particularly, are threats to the state of Pakistan. So that 
there is an opportunity here for a modus vivendi so that they 
share common objectives. Therefore, to the degree in which LET 
continues to do so, and it is a question about whether it will 
continue to do so, there is no reason for the ISI as such to 
turn against it.
    Mr. Connolly. Thank you, and my time is up, Mr. Chairman, 
and I got one question in. Thank you.
    Mr. Ackerman. Thank you. Stick around. Mr. Royce?
    Mr. Royce. Thank you, Chairman. Dr. Tellis: Of the amalgam 
of jihadists that operate in Pakistan, is it safe to say that 
the LET receives the least amount of scrutiny from the 
Pakistani Government?
    Mr. Tellis. That is correct.
    Mr. Royce. A recent Newsweek article reported that ``unlike 
al-Qaeda which is on the run and largely confined, LET operates 
terrorist training camps more or less in the open'' in 
Pakistan. I would ask you, is this an accurate description of 
this, do people agree that this is?
    Mr. Tellis. That is correct, and they have an annual 
meeting which is often attended by important political 
personalities in Pakistan. And the annual meeting is 
essentially a jamboree for jihadists that takes place in 
Muridke, and it is an open event.
    Mr. Royce. But some of the officials that attend, are they 
parliamentarians?
    Mr. Tellis. There are both elected officials and there are 
officials from more shadowy parts of the Pakistani Government 
that attend these meetings.
    Mr. Royce. And if I could ask Dr. Weinbaum, you note in 
your testimony that LET's chief, Hafiz Saeed, because of his 
work with young people during his time at an engineering 
university became in your words, you said he is believed to 
have many sympathizers within Pakistan's scientific community, 
especially in the nuclear and missile fields.
    Mr. Weinbaum. Correct.
    Mr. Royce. People have often asked how many al-Qaeda 
sympathizers are in Pakistani security establishment. You know, 
your question strikes us that maybe we are asking the wrong 
question. Maybe the real question we should have been asking 
ourselves is, what about LET elements in the nuclear field? And 
have you given some thought to that?
    Mr. Weinbaum. Well, I believe that what we have here is 
obviously just circumstantial evidence.
    Mr. Royce. Yes.
    Mr. Weinbaum. But what we do know, and obviously we are 
concerned about----
    Mr. Royce. Well, their membership is 150,000 people, 
according to Newsweek, in Pakistan.
    Mr. Weinbaum. Well, again, how do you separate Jamaat-ud-
Dawa, the charity wing, from the political military wing that 
LET constitutes? that is very blurred. And it is really the 
strength of the organization is the fact that it has this 
charity persona.
    Mr. Royce. No, I understand that.
    Mr. Weinbaum. Yes.
    Mr. Royce. Well, so let me ask Lisa a question here. 
British Pakistanis have been known to use the ``Kashmir 
escalator'' after getting introduced to LET or others in 
Kashmir, then they connect with al-Qaeda operatives. And last 
year a British official estimated that 4,000 people were 
trained in this way since 9/11, and it accounted for three out 
of four of the serious terrorist plots faced by the UK. Now, of 
course many of these people also could get into the United 
States without a visa, right, because they are British 
citizens. How deep are the LET ties within the British and 
French Pakistani communities in your view, and how are we 
working with the British on this?
    Ms. Curtis. Well, there was information that one of the 
London subway plotters was actually trained at an LET camp, so 
I think there are some connections there. But in terms of the 
U.S. and whether or not we are working with the UK, I think I 
raised in my testimony that I don't think the U.S. Government 
has given the LET the attention that it deserves.
    Mr. Royce. And that goes to another point I was going to 
ask you about, Ms. Curtis. Have we gotten to that point where 
we approach the LET as we approach al-Qaeda? You say no, but we 
have got the Headley case as you point out. He was born in the 
United States to a Pakistani diplomat and a Philadelphia 
socialite. He was charged in December with providing material 
support to the LET for scouting locations for the Mumbai terror 
attack. He made multiple trips to India taking videos of the 
hotels and restaurants in advance in order to carry out these 
attacks. What would you tell U.S. policy makers regarding the 
need to change our view of the LET?
    Ms. Curtis. Well, I think we need to focus on the 
masterminds of the attack. Yes, Headley was a facilitator, he 
scouted sites, but what is important is his handler, who was 
directing him, who was really the one on the other line of the 
cell phone telling the killers who to kill, who to murder. So 
that is why it goes back to Pakistan and focusing on taking 
down the LET in Pakistan. Because yes they do have an 
international network and we need to work with our allies in 
focusing on that international network, but if you have the 
masterminds directing the other arms of this operation, then 
you will go a long way to decimating it.
    So again I come back to how important it is to focus on 
disrupting that leadership in Pakistan, convincing the Pakistan 
military that this group is a threat not only to India, to the 
international community, but also eventually to themselves, and 
that they do have an international viewpoint. I think that is 
what I would tell our policy makers to focus on.
    Mr. Royce. Thank you, Ms. Curtis. Thank you, Mr. Chairman.
    Mr. Ackerman. Mr. Bilirakis?
    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it 
very much. I have a couple questions. And I know you touched on 
this but maybe you can elaborate a little more or the panel 
can. Is the Pakistan Government as a whole seriously interested 
in combating religious extremism or are there divisions within 
the country and government that prevent the government as a 
whole from being able to take immediate steps to address these 
threats?
    Mr. Nawaz. Maybe I can attempt to reply to that, 
Congressman.
    Mr. Bilirakis. Thank you.
    Mr. Nawaz. I think in the last couple of years 
particularly, the people of Pakistan have put pressure on the 
government and the military. And the military particularly now 
recognizes the growing threat from within. I think this is 
being reflected in the support that was given to the Pakistan 
army in its operations in Swat and in the renewed operations in 
Fatah. And this is something that we should perhaps capitalize 
on, which is to strengthen these movements.
    And also to build up on an earlier point, to recognize that 
if you change the landscape and effect it particularly in the 
recruitment area of the LET which is the Punjab, not just the 
economic landscape but return Islam to the predominant Sufi 
Islam that dominates Pakistan as a religious entity, that is 
really where the strength is going to lie because you will yank 
the carpet from under the feet of these groups.
    And then finally, I think on the external front, as the 
ranking member has said a number of times, if you could just go 
back to the road map that had already been achieved in the 
composite dialogue between India and Pakistan, it exists on 
paper and I can confirm that President Musharraf has personally 
confirmed to me the outlines of that agreement. It is the 
question of going back and picking it up from there, for which 
the current reopening of the dialogue is a very good sign. This 
has to be a multifaceted effort, I don't think there is any 
silver bullet solution to it.
    Mr. Bilirakis. Thank you, sir. Anyone else on the panel?
    Mr. Tellis. If I may take a crack at that. I think in 
principle Pakistan as a country has come to the point where 
they recognize that they cannot avoid dealing with the 
challenges of religious extremism. But it breaks down once you 
start looking at different groups within Pakistan. The body 
politic, the public, are clearly sick and tired of the 
deterioration that has taken place in Pakistani politics. You 
get poll after poll that shows people having absolutely no 
appetite for sustaining these groups anymore.
    The civilian regime, the regime of President Zardari, I 
think very much shares that conviction as well. Where 
uncertainties arise are the Pakistani military and intelligence 
services. And there it is not that they don't recognize the 
nature of the problem, it is that they are deeply conflicted 
about the utility of some of these players to their own 
interests. And so you get a truly schizophrenic attitude where 
the Pakistani military and intelligence services want to 
confront the problem but they want to confront it selectively 
and they want to pick and choose.
    And there are some terrorist groups that affect their own 
interests adversely whom they are content to go after, and 
there are other terrorist groups who they think they can live 
with because they are assets in the military's campaign against 
India and Afghanistan. Now, as long as this schizophrenia 
exists in the national security establishment, the kinds of 
problems that you are alluding to will continue to persist.
    Mr. Bilirakis. Thank you.
    Ms. Curtis. Yeah, I just want to also highlight that. I 
think that there is thinking within the Pakistani security 
establishment that you can support some terrorists or tolerate 
some terrorists and fight others. I think this is 
counterproductive. I think the reality is that these terrorists 
they get stronger and stronger, they have such a virulent 
ideology, and the LET is a case in point, that they will 
eventually go off on their own and start attacking the state.
    Now, the LET has not started attacking the state yet but 
they are extending their sights internationally, more 
Westerners are becoming involved in their attacks, a more pan-
Islamist ideology. So I think it is almost there is a lack of 
strategic thinking within the Pakistan military establishment 
that doesn't understand that by supporting some of these groups 
you are actually undermining your overall ability to get a 
handle on the terrorism problem in your own country. And 
Secretary Gates tried to explain this in an op-ed that he wrote 
which ran in a Pakistani daily a few weeks ago. But I think we 
need to keep hammering home that point, that it is bad policy 
for them to try to support some terrorists and fight others.
    Mr. Bilirakis. Thank you, Mr. Chairman, appreciate it.
    Mr. Ackerman. We have about reached that time, but what I 
think I would like to do, rather than let you all go right now, 
because as soon as you are halfway down the hall you are each 
going to say, I wish I had another half a minute, I would have 
said X. You each have 45 seconds to fill in the blank if you 
would like.
    Mr. Weinbaum. To sum up what I said in my statement. LET's 
reputation for charity and piety and patriotism together with 
its close ties to the senior officers of the Pakistan military 
and intelligence establishment give it the potential I believe 
to transform Pakistan society into a Sharia state similar to 
that of Afghanistan in the 1990s. I don't see that as imminent, 
but I think that that potential exists. The U.S. therefore 
would be faced in Pakistan with a jihadi dominated state that 
it has most to fear and a global threat that I believe dwarfs 
al-Qaeda. Thank you.
    Mr. Ackerman. Ms. Curtis?
    Ms. Curtis. I guess I would just like to reiterate what 
Congressman Royce quoted out of my testimony, that if we just 
keep allowing this group to exist we are sitting next to a 
ticking time bomb. I think it does pose a threat to U.S. 
interests. It is a very short step to go from the attacks in 
Mumbai, in which of course six Americans were killed, it is a 
very short step for them to then, you know, target a strictly 
Western target. And I think that we need to take this problem 
more seriously and raise it to the top of our agenda with 
Pakistan.
    Mr. Ackerman. Dr. Tellis?
    Mr. Tellis. I would just like to end by responding to the 
remarks that the ranking member made because I think they are 
very important. There is no doubt in my mind that we have to 
find ways to resolve the issues relating to Kashmir, but I 
think resolving Kashmir is not going to solve the problems 
relating to LET. I always find it interesting that the people 
conducting the murder and mayhem in the subcontinent today are 
not Kashmiris, the people who actually are deprived of all 
their political rights, they are not conducting the murder and 
mayhem.
    The murder and mayhem is being conducted by groups that 
have absolutely no connections to Kashmir, and to my mind that 
tells me a story, the fact that this is a group that has 
operations in 21 countries, that has an ideology that is 
completely anti-Western, that is opposed to modernity and 
secularism and all the kinds of values that we take for 
granted. This group is not going to be satisfied by dealing 
with the issues of Kashmir. So we have to deal with Kashmir, 
but it is not going to solve this problem.
    Mr. Ackerman. Mr. Nawaz?
    Mr. Nawaz. Thank you, Mr. Chairman. I would like to make 
two points. First of all, I agree with Ashley Tellis that 
resolving the Kashmir problem by itself is not going to remove 
this threat because the aim of these groups is to leverage 
themselves into a position of power inside Pakistan and to take 
control. They are going to face a very uphill task because the 
majority of the population doesn't believe in their brand of 
Islam or their tactics. Secondly, I think we need to support 
the ideas of the people of India and Pakistan for peace.
    A recent simultaneous poll conducted by the Times of India 
and the Jang newspaper group in Pakistan indicates that 70 
percent of the people polled want peace between India and 
Pakistan. I think that is the kind of movement that needs to be 
supported from within and from outside, because once you 
achieve that you create economic openings and those openings 
will allow the people of Pakistan and India to prosper and 
remove these terrorist groups from their midst. Thank you.
    Mr. Ackerman. Thank you. Thank the entire panel, you have 
been very very helpful, very informative, and very persuasive. 
The committee stands adjourned.
    [Whereupon, at 4:01 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                    <all>




</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
